Department of Homeland Security
   Ofﬁce of Inspector General


            Assessment of FEMA's Public Assistance 

               Program Policies and Procedures 





OIG-10-26                                      December 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                    December 8, 2009

                                         Preface

The U.S. Department of Homeland Security (DHS) Office of Inspector General (OIG)
was established by the Homeland Security Act of 2002 (Public Law 107-296) by
amendment to the Inspector General Act of 1978. This is one of a series of audit,
inspection, and special reports prepared as part of our oversight responsibilities to
promote economy, efficiency, and effectiveness within the department.

This report addresses concerns raised by the U.S. House of Representatives Committee
on Transportation and Infrastructure regarding the policies and procedures of the Federal
Emergency Management Agency’s Public Assistance program. It is based on interviews
with employees and officials of relevant entities, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General                                      

Table of Contents/Abbreviations 


Executive Summary ...........................................................................................................1


Background ........................................................................................................................2


Results of Audit ..................................................................................................................4


     Timeliness of Funding ...................................................................................................4

     Recommendations..........................................................................................................7  

     Management Comments and OIG Analysis ..................................................................8 

     Congressional Consideration .........................................................................................9      


     Program Management....................................................................................................9 

     Recommendations........................................................................................................14 

     Management Comments and OIG Analysis ................................................................15 

     Congressional Considerations......................................................................................15      


     Performance Measurement ..........................................................................................16      

     Recommendations........................................................................................................17 

     Management Comments and OIG Analysis ................................................................18 

     Congressional Consideration .......................................................................................18     


Alternatives to Streamline the PA Process ....................................................................18


     Recommendation .........................................................................................................23         

     Management Comments and OIG Analysis ................................................................23 


Appendices

     Appendix A: Purpose, Scope, and Methodology.........................................................24

     Appendix B: Management Comments to the Draft Report .........................................26 

     Appendix C: OIG Analysis of Management Comments to the Draft Report ..............36 

     Appendix D: Major Contributors to This Report.........................................................41

     Appendix E: Report Distribution .................................................................................42 


Abbreviations

     DHS                   Department of Homeland Security 

     EHP                   Environmental and historic preservation 

     EMMIE                 Emergency Management Mission Integrated Environment 

     FEMA                  Federal Emergency Management Agency 

     GPRA                  Government Performance and Results Act of 1993

     IRS                   Internal Revenue Service 

     NEMIS                 National Emergency Management Information System

     NEPA                  National Environmental Policy Act

     OIG                   Office of Inspector General 


                 Assessment of FEMA’s Public Assistance Program Policies and Procedures
Table of Contents/Abbreviations 


  OMB            Office of Management and Budget
  PA             Public Assistance
  PW             Project worksheet
  Stafford Act   Robert T. Stafford Disaster Relief and Emergency Assistance Act




         Assessment of FEMA’s Public Assistance Program Policies and Procedures
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   We performed this audit in response to Congressional concerns
                   over the design and implementation of the Federal Emergency
                   Management Agency’s Public Assistance program. Our objectives
                   were to: (1) determine the efficacy of processes and procedures
                   used to generate project worksheets, including the completeness,
                   accuracy, and timeliness of project worksheets; and (2) identify
                   alternatives to streamline the project worksheet process.

                   The project worksheet process is hindered by untimely funding
                   determinations, deficiencies in program management, and poorly
                   designed performance measures. FEMA needs to improve the
                   timeliness of the project worksheet process for appeals,
                   environmental and historic preservation reviews, and insurance
                   settlement reconciliations. Also, FEMA needs to reduce employee
                   turnover and improve classroom and on-the-job-training for
                   disaster officials. Further, FEMA needs to improve Public
                   Assistance program performance objectives and measurements.

                   To satisfy our second objective, we identified alternatives to
                   streamline the Public Assistance process, including potential
                   benefits and concerns. These alternatives include: negotiated
                   settlements; an increase to the large project threshold; the
                   replacement of grants with prescripted mission assignments; the
                   transfer of other federal disaster programs to FEMA; and interval
                   payments.

                   We are making 16 recommendations aimed at improving FEMA's
                   process for reviewing and approving Public Assistance projects.
                   FEMA generally concurred with the majority of these
                   recommendations and agreed to provide corrective action plans
                   within 90 days.




        Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                       Page 1
Background
                 When disasters occur, local communities respond first, followed by
                 the state, if necessary. Federal assistance may be requested under
                 the Robert T. Stafford Disaster Relief and Emergency Assistance
                 Act (Stafford Act) when the magnitude of the disaster exceeds
                 local and state capacity. The Federal Emergency Management
                 Agency Public Assistance (PA) program provides critical
                 assistance, in the form of direct assistance and grants, to state,
                 tribal, and local governments, as well as certain private nonprofit
                 organizations, to enable communities to quickly respond to and
                 recover from major, presidentially declared emergencies and
                 disasters.

                 FEMA awards grants to provide supplemental assistance for debris
                 removal, emergency protective measures, and the repair,
                 replacement, or restoration of eligible disaster-damaged facilities.
                 The PA program also encourages protection of damaged facilities
                 from future disasters by providing funding for hazard mitigation
                 measures. PA funding has been substantial, totaling more than
                 $30 billion for the past decade.

                 The PA program is administered through a coordinated effort
                 among FEMA, grantees, and subgrantees, each with different roles.
                 FEMA manages the PA program, approves grants, and provides
                 technical assistance to the grantees and subgrantees. In most cases,
                 states are the FEMA grantees, while local governments and
                 eligible private nonprofit organizations are the subgrantees.

                 The grantee educates potential applicants, works with FEMA to
                 manage the program, and is responsible for implementing and
                 monitoring the grants awarded under the program.

                 Subgrantees are responsible for identifying damages, submitting
                 the request for public assistance, and documenting and completing
                 response and recovery efforts approved under the program.

                 The project worksheet (PW) provides the basis for awarding PA
                 grants and is used to document the location, damage description,
                 scope of work, and cost estimates for each project. The PW
                 process generally includes an initial site inspection by a FEMA
                 project officer who subsequently writes a PW that includes the
                 scope of work and estimated project costs. During this process,
                 FEMA’s project officer is responsible for coordinating with the
                 grantee and subgrantee to prepare the PW. FEMA or state officials


      Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                     Page 2
           assign a Public Assistance Coordinator crew leader to serve as the
           subgrantee’s customer service representative on PA program
           matters.

           The PA program project formulation process depicted in the
           following chart illustrates the steps in developing and approving
           PWs:




                                                                                         Source: FEMA

          Note: The large project threshold for 2009 has been adjusted to $64,200 vs. the $47,800 shown
          above. Applicants become subgrantees upon FEMA’s approval of the Requests for Public
          Assistance.


           As a result of the devastation caused by the 2005 Gulf Coast
           hurricanes, scrutiny of FEMA’s program policies and procedures
           has increased significantly, as demonstrated by detailed inquiries
           by Congress, the DHS Office of Inspector General, the
           Government Accountability Office, and the media. These inquiries
           have focused particularly on the timeliness of FEMA decision
           making; the technical proficiency of FEMA personnel and
           contractors; the need for better communication and coordination
           among FEMA, grantees, and subgrantees; and inconsistency in
           policy interpretations and funding determinations.


Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                    Page 3
Results of Audit

           FEMA needs to: (1) improve the timeliness of appeal determinations, the
           environmental and historic preservation (EHP) process, and insurance
           settlements; (2) reduce program management deficiencies in such areas as
           initial PW procedures, eligibility determinations, and cost estimates; and
           (3) improve the measurement and achievement of PA performance and
           objectives. Contributing factors to program deficiencies include: the
           absence of timeline criteria for portions of the PW process; employee
           turnover and inexperience; and insufficient analyses of performance
           measurement methodology and objectives. Improvements need to be
           achieved by setting timelines for all key actions, overhauling the system
           for staffing and training disaster personnel, and changing performance
           measurement methodology and clarifying objectives. These
           improvements will provide more efficient recovery from disasters.

     Timeliness of Funding

           FEMA needs to improve the timeliness of PA funding, while ensuring PW
           accuracy and completeness, to avoid project delays and to improve overall
           program efficiency. FEMA’s Strategic Plan commits FEMA to provide
           “timely disaster assistance to hasten the recovery of individuals and
           communities.” However, funding to grantees and subgrantees is often
           delayed because of: (1) appeals processing time; (2) the EHP process; and
           (3) the reconciliation of insurance settlements. Improvements in these
           procedures will improve subgrantees’ cash flow and facilitate more timely
           completion of their projects.

                   Appeal Determination Process. FEMA takes excessive time to
                   process appeals because it does not: (1) adhere to, or has not set,
                   timeliness standards for the appeals determination process;
                   (2) have a standardized system to track appeals; and (3) offer an
                   agency-wide mediation process for appeals that have reached
                   impasse.

                   The appeal process is the opportunity for subgrantees to request
                   reconsideration of decisions regarding project scope and funding.
                   Subgrantees must file an appeal with supporting documentation
                   through the grantee to the appropriate FEMA regional office
                   within 60 days of receiving what they consider an unfavorable
                   FEMA decision. If the first appeal is not successful, the
                   subgrantee may submit a second appeal through the grantee to
                   FEMA headquarters. FEMA officials are required to make a final
                   decision within 90 days of receipt of the request for each appeal,
                   unless they request additional information from the subgrantee.

        Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                       Page 4
           FEMA does not have established timelines for receiving additional
           information or analysis during the second appeal process.

           The following diagram depicts the process for appealing FEMA
           funding decisions:




           FEMA does not consistently adhere to timeliness standards
           governing the amount of time its officials have to provide
           determinations on appeals. We reviewed appeals that showed, on
           average, FEMA rendered a decision after about 7 months for first
           appeals, and after about 10 additional months for second appeals.
           In some cases, the appeal process spanned several years. For
           example, a subgrantee submitted a first appeal on February 27,
           2005, and received an unfavorable response from FEMA on
           October 20, 2006, an elapsed time of about 20 months. On March
           9, 2007, the subgrantee submitted a second appeal and received a
           response from FEMA 17 months later, on August 7, 2008. In this
           example, the total elapsed time for the appeal process was about 3
           years.

           FEMA has no agency-wide system of tracking appeals from
           submission date to final determination. As a result, FEMA has no
           standardized means to identify delays for each appeal. This
           condition is compounded by incomplete record keeping on
           appeals. Both factors contribute to FEMA’s misperception that the


Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 5
           appeal process is timely, and thus to its inaction in correcting
           systemic delays.

           Subgrantees expressed dissatisfaction with the appeal process, and
           some suggested creating an appeals mediation board or
           ombudsman’s office to resolve issues that have reached an
           impasse. Such options have already been created for the Gulf
           Coast states most affected by hurricanes Katrina and Rita.
           Louisiana, Mississippi, and Texas can use FEMA’s Appeals
           Arbitration Panel to resolve issues that have reached an impasse,
           and may also collaborate with joint FEMA-state teams to address
           more immediate operational issues.

           EHP Process. FEMA takes excessive time to complete the EHP
           process because it does not manage it proactively. This can result
           in significant project delays, thus preventing communities from
           quickly responding to and recovering from major emergencies or
           disasters.

           FEMA is required to determine subgrantee compliance with
           applicable environmental and historic preservation laws,
           regulations, and executive orders before PA funds are provided and
           work can begin. Federal regulations require the use of the
           National Environmental Policy Act (NEPA) review process to
           ensure compliance with relevant environmental laws, regulations,
           and Executive Orders. NEPA requires every federal agency to
           follow a specific planning process to ensure that FEMA, the state,
           and local governments have considered, and the general public is
           fully informed about, the environmental consequences of a federal
           action prior to starting a project. The National Historic
           Preservation Act likewise provides a review process—prior to the
           beginning of work—and requires federal agencies to consider the
           effects of their projects on any district, site, building, structure, or
           object that is included in, or eligible for inclusion in, the National
           Register of Historic Places.

           Although the EHP process can be inherently time-consuming,
           unnecessary delays occur because FEMA does not:

               �	 Perform EHP work consistently, early in the disaster
                  recovery process.,
               �	 Triage EHP workload based on importance,
               �	 Require formal time limits for the EHP process,




Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 6
               �	 Coordinate sufficiently, and establish pre-disaster
                  agreements, with other federal agencies involved in the
                  EHP process, or
               �	 Coordinate state EHP workload to mitigate duplicative
                  efforts.

           Delays have occurred, for example, when a Gulf Coast subgrantee
           waited more than 2 years while FEMA considered demolishing
           numerous structures that were destroyed by Hurricane Katrina.
           Ultimately, the subgrantee chose to proceed with the work without
           FEMA’s approval because the structures posed health and safety
           risks to the community. This exemplifies the need for FEMA to
           implement an efficient EHP process.

           Insurance Settlements. Subgrantees encounter delays in
           completing work on insured structures as a result of monetary
           shortfalls while awaiting final settlement from the insurer. To
           prevent duplicative benefits, the Stafford Act requires FEMA to
           reduce the funding for eligible work by the amount of any
           anticipated insurance proceeds. Upon final settlement, the
           subgrantee may submit a claim to FEMA for any costs not
           reimbursed by the insurer. However, insurers can take years to
           reach a settlement, thus creating cash flow problems for the
           subgrantee. Although subgrantees can receive advances from
           FEMA, many are generally not in favor of addressing cash flow
           problems through this option because of financial management and
           accountability concerns.

           Conclusion

           FEMA’s PA funding is delayed by insufficient timelines for PW
           actions pertaining to appeals, the EHP process, and insurance
           settlements. The appeals process lacks complete timeliness
           standards, an agency-wide means to identify delays, and a
           mediation process for unresolved complex issues. The inherently
           time-consuming EHP process is prolonged by FEMA’s untimely,
           unstructured, and uncoordinated reviews. Projects are also delayed
           while subgrantees await insurance proceeds. Addressing these
           issues would significantly improve the timeliness of PA project
           funding.

   Recommendations
           We recommend that the FEMA Administrator:



Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 7
           Recommendation #1: Establish a complete set of standards for
           achieving timeliness in the appeals process and adhere consistently
           to those standards previously established.

           Recommendation #2: Develop and implement a tracking system
           that records the status and timeliness of each appeal.

           Recommendation #3: Establish a FEMA-wide mediation or
           arbitration process for appeals that have reached an impasse. Refer
           claims that have reached an impasse within FEMA’s appeals
           system to the mediation or arbitration board.

           Recommendation #4: Initiate and triage EHP workload,
           immediately after a disaster, based on importance and not
           necessarily the order in which received.

           Recommendation #5: Establish and enforce formal time limits
           for the EHP process.

           Recommendation #6: Coordinate the EHP process through
           programmatic or similar agreements with other federal agencies
           and state entities involved.

           Recommendation #7: Provide funding for projects that will later
           be covered by insurance proceeds when the insurer and the insured
           (subgrantee) agree to subrogate all applicable funds to FEMA.

   Management Comments and OIG Analysis
           Appendix B provides the complete text of FEMA's responses to
           these seven recommendations. FEMA did not concur with
           Recommendations 3 and 5. Consequently, for the reasons stated in
           Appendix C, OIG Analysis of Management Comments to the Draft
           Report, we consider these two recommendations unresolved.
           While FEMA concurred with Recommendations 1, 4, and 6 and
           considered them closed, it did not address the core issue of timely
           appeals determinations subsequent to its requests for additional
           information. We also consider these recommendations unresolved
           for the reasons included in Appendix C which provides additional
           details concerning the finding and recommendations. We consider
           Recommendations 2 and 7 resolved but open, pending review of
           corrective actions taken.




Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 8
     Congressional Consideration

             The following proposed action is presented for congressional
             consideration:

             Congressional Consideration #1: Provide authority for FEMA to
             implement a binding arbitration process for appeals that have
             reached an impasse and direct FEMA to use such a system when
             appropriate.

Program Management

     FEMA needs to improve its management of the PA program by addressing
     problems in the following areas: (1) determinations by FEMA project
     officers; (2) revisions to the initial PW; (3) deferral of decisions; (4) scope
     of work clarity; (5) negotiations with subgrantees on eligibility;
     (6) acceptance of subgrantees’ supporting documentation; (7) repetitive
     documentation requests; (8) familiarity with codes and standards; (9) hazard
     mitigation projects; and (10) reasonableness of cost estimates. Effecting
     changes in these areas will require addressing turnover, inexperience, and
     lack of training among FEMA personnel assigned to disaster response and
     recovery, in addition to disseminating a clear and consolidated body of PA
     guidance. Such changes would also improve program timeliness, as
     discussed in the preceding section.

             Determinations by FEMA Project Officers. Subgrantees
             experience project delays and excessive administrative efforts
             because of FEMA’s inconsistent determinations on project
             eligibility. FEMA often reverses course on previous decisions for
             scopes of work and estimated costs after working with subgrantees
             for months. This is the result of turnover and rotation throughout
             the PA process, which requires subgrantees to reeducate new
             FEMA project officers on the damages.

             Revisions to the initial PW. Project delays sometimes occur
             when FEMA does not accurately estimate costs or scope of work
             in the initial PW, thereby creating the need for a significant
             number of PW revisions—sometimes a time-consuming and
             labor-intensive process. In the PWs that we reviewed, FEMA’s
             PW revision rate was 147%. Moreover, FEMA made substantial
             funding revisions to many of these PWs. For example, a PW was
             obligated for about $645,000 and was revised more than 2 years
             later to increase the obligation amount to about $12 million as a
             result of revisions to the damage description and scope of work.
             Although PW revisions may be justified in some cases—such as

  Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                  Page 9

                              the discovery of hidden disaster damage—revisions can also occur
                              as a result of FEMA’s: (1) insufficient communication with the
                              grantee and subgrantee throughout the PW determination process;
                              (2) inconsistent inclusion of state-assigned PA personnel to
                              provide assistance in key meetings with the subgrantee; and (3) a
                              focus on speed rather than accuracy in an attempt to improve
                              performance measurement results or address subgrantee cash flow
                              problems. The number of revisions and supplemental funding
                              highlights the need for greater diligence and precision in the initial
                              PW preparation process.

                              Deferral of decisions. FEMA officials often defer making project
                              decisions—particularly those related to substantial cost overruns or
                              scope changes—until closeout. These deferrals preclude timely
                              site inspections and reviews that would determine cost eligibility
                              more reliably, thereby subjecting subgrantees to risks that costs
                              and scope changes ultimately will be determined ineligible.
                              FEMA’s rules require its officials to take appropriate action upon
                              notification of the subgrantee’s request for a budget or scope
                              increase. Deferrals may occur as a result of insufficient FEMA
                              personnel, especially those who are qualified to make efficient and
                              appropriate decisions on issues as they arise. For example, we
                              reported in July 2008 that a subgrantee requested that FEMA
                              provide supplemental funding (approximately $1.5 million) for
                              project management and monitoring of debris removal. 1 FEMA
                              officials deferred the decision until closeout, more than 3 years
                              after the original request was made. The grantee participated in
                              this process and did not object to FEMA’s decision. Despite the
                              deferral, the subgrantee proceeded with the work without knowing
                              whether FEMA would ultimately approve the costs.

                              Scope of work clarity. FEMA officials create delays when they
                              do not include sufficient detail on scopes of work in the PWs. This
                              can cause problems when the grantee requires that the PW scope of
                              work exactly match the cost documentation. For example, when a
                              PW has a broad scope of work, such as “repair wall damage,” the
                              grantee may not reimburse the subgrantee for all the eligible work
                              (for example, repainting the wall) because the item of work was
                              not specifically mentioned in the PW.

                              Negotiations with subgrantees on eligibility. Subgrantees said
                              that project officers inappropriately ask for concessions on some
                              items of work in exchange for approval of other items. This puts
                              subgrantees in a difficult situation and detracts from FEMA’s

1
    DS-08-04; July 7, 2008.

               Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                                  Page 10

           professionalism and ability to instill confidence in its customers.
           FEMA is required to determine eligibility based on established
           federal criteria, not through negotiation or deal-making.

           Acceptance of subgrantees’ supporting documentation. FEMA
           does not consistently consider documentation provided by
           subgrantees that would expedite the PW preparation process. For
           example, a subgrantee took photos within 10 days of a disaster and
           prepared thousands of work orders. FEMA officials arrived
           months later and refused to consider the subgrantee’s
           documentation. As a result, this subgrantee is prepared to appeal
           should FEMA’s final determinations conflict with information
           captured within the documentation. Subgrantees said that FEMA
           officials exhibit an attitude of mistrust.

           Repetitive documentation requests. FEMA officials sometimes
           require subgrantees to resubmit documentation that was previously
           provided. Repetitive documentation requests impose a significant
           administrative burden on all parties, as well as project delays.
           Multiple requests for documentation are generally the result of the
           inadequate transition between FEMA officials when turnover
           occurs.

           Codes and standards familiarity. FEMA officials do not
           consistently apply local building codes and standards in
           determining eligible work for PWs, resulting in appeals and
           significant project delays. This is caused by the lack of familiarity
           with specific local building requirements. For example, funding
           for upgrades required by local codes and standards is eligible under
           FEMA’s criteria. However, because of their inexperience with
           local codes, FEMA officials incorrectly determined that damaged
           school buildings were ineligible for roof replacement.

           Hazard mitigation projects. FEMA does not consistently
           identify or properly interpret PA hazard mitigation work eligibility.
           This results in untimely or inaccurate funding determinations after
           work has been completed, and effectively prevents the subgrantees
           from performing eligible mitigation work. For example, FEMA
           officials informed a subgrantee, 18 months after they approved the
           initial PWs, that hazard mitigation was eligible. At that point, the
           subgrantee had already performed the work, thus rendering hazard
           mitigation work infeasible. In another example, a subgrantee spent
           $3.8 million for a repair and hazard mitigation project based on
           FEMA’s recommendations. Later, another FEMA official
           interpreted the project differently and determined that the


Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 11
           mitigation work was ineligible. The subgrantee is awaiting
           resolution of this issue.

           Reasonableness of cost estimates. FEMA sometimes uses
           reasonableness to estimate costs, yet those estimates are
           sometimes substantially lower than the actual costs. Because
           FEMA does not always explain the methodology used in
           determining reasonableness, the estimates may appear, or may
           actually be, arbitrary. FEMA’s policy allows for reasonable cost
           determinations to be made by such means as historical
           documentation for similar work, average costs, published costs,
           and FEMA cost codes. The process could be improved if FEMA
           explained to the subgrantee the specific methodology used. For
           example, following Hurricane Katrina, FEMA estimated unit costs
           for debris removal based on reasonableness, but this estimate was
           substantially lower than the actual costs. FEMA officials would
           not approve the actual costs, yet did not inform the subgrantee of
           the methodology used to determine reasonableness.

           Root Causes of Program Management Deficiencies: Employee
           Turnover, Inexperience, and Lack of Training

           Program management deficiencies are caused principally by
           turnover, inexperience, and lack of training within FEMA’s
           disaster workforce. These issues derive from FEMA’s disaster
           staffing system. In addition, FEMA personnel do not have access
           to a clear and consolidated body of PA guidance that would
           facilitate their comprehension of the program.

           Nearly all of the subgrantee officials interviewed said that turnover
           of FEMA’s disaster personnel creates significant problems in
           program management. FEMA’s workforce is drawn nationwide
           from permanent employees, intermittent employees, and
           contractors. These employees—generally assigned to areas away
           from their homes—may lack the commitment for long-term
           assignments, as well as knowledge of critical local issues such as
           contractor availability and pricing. Further, FEMA sometimes
           transfers these employees to other disaster sites before the recovery
           process is completed at the site to which they were initially
           assigned. Both of these scenarios result in a “revolving door”
           effect. This condition is exacerbated because FEMA has not
           established permanent offices in states most vulnerable to
           recurring, large-scale disasters.

           Turnover also occurs because FEMA’s temporary workforce is
           subject to limitations of availability due to Internal Revenue

Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 12
           Service (IRS) tax implications and federal annuitant offsets for
           extended temporary duty. These restrictions prompt employees to
           end their employment prematurely, even after only 1 year. IRS
           residency rules require travel reimbursements to be treated as
           taxable income after an employee is assigned to a location for an
           extended period. Federal rules pertaining to retired government
           employees and Social Security recipients require offsets to
           annuities based on compensation. Bills have been introduced in
           Congress, subsequent to Government Accountability Office
           findings, addressing restrictions on hiring and retaining retired
           government employees for critical workforce needs.

           FEMA’s workforce generally lacks sufficient experience and
           training to perform the responsibilities of the PA program
           efficiently. Following a disaster declaration, FEMA employs
           many local, intermittent, and contract personnel who have little
           experience in, or knowledge of, FEMA’s PA program policies and
           procedures. These employees do not receive formal training until
           a disaster has occurred. Moreover, this training provides only
           basic PA program information and is limited to classroom
           instruction, sometimes delivered by temporary personnel. FEMA
           officials’ insufficient experience and training is apparent when
           subgrantees need to explain eligibility rules to them as PWs are
           being developed.

           FEMA acknowledged the problematic nature of employing
           personnel who have little or no previous PA experience, and
           attribute this to budgetary constraints that restrict training of
           intermittent employees prior to their deployment. However,
           FEMA is developing a standardized web-based credentialing
           system to assure that employees deployed to a disaster site are
           qualified to perform their duties. This system is intended to track
           employee qualifications, experience, education, mentoring, and
           training. Credentialing should ensure that employees deployed to a
           disaster site have the qualifications and training to perform their
           assigned duties adequately.

           The lack of a single resource that includes all of FEMA’s PA
           publications and policies leads to inconsistent interpretations and
           understandings of FEMA’s rules. Currently, FEMA has a
           multitude of PA documents that necessitate reference to multiple
           sources. This can prove burdensome, confusing, and untimely for
           disaster officials. For example, FEMA’s policy on debris removal
           is unclear and thus open to interpretation. As a result, some
           communities have been denied eligibility for debris removal costs,
           while others have received reimbursements for identical costs.

Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 13
                         About $180 million in debris removal costs after the 2004–2005
                         disasters in Florida demonstrate the significance of clarifying the
                         debris removal policy. As another example, subgrantees grapple
                         with understanding the cost-effectiveness of FEMA rules
                         pertaining to replacement in lieu of repairs to damaged property
                         when those repairs can cost more than replacement. Although
                         FEMA’s policy allows for the replacement of property when
                         estimated repair costs exceed 50% of the replacement costs, it does
                         not include all eligible costs, such as hazard mitigation, when
                         making the determination.

                         FEMA’s Public Assistance Division director, acknowledging
                         problems, testified before Congress in July 2007 that FEMA is
                         updating its policy and guidance. 2 These documents will be
                         compiled in a Public Assistance Operations Manual that will be
                         available to FEMA, state, and local officials involved in the
                         disaster response and recovery process. This manual will include
                         all relevant PA guidance and will describe the PA process from the
                         initial stage of doing a preliminary damage assessment to the final
                         stage of closing the disaster. FEMA officials in the Public
                         Assistance Division are in the process of preparing this manual but
                         have not set a date for its release.

                         Conclusion

                         FEMA’s PA program management is in need of improvements in
                         initial PW determinations, eligibility clarification, and cost
                         estimations. Problems result from employee turnover, limited
                         training for disaster personnel, and the absence of a PA operations
                         manual.

                 Recommendations
                         We recommend that the FEMA Administrator:

                         Recommendation #8: Restructure FEMA’s disaster workforce
                         into sufficiently staffed regional cadres and deploy personnel only
                         to the geographic area in which they reside, unless nationwide
                         deployment in response to a catastrophic disaster is necessary.



2
 Testimony of James Walke, Director, Public Assistance Division, Disaster Assistance Directorate,
Federal Emergency Management Agency, Department of Homeland Security, before the Homeland
Security and Governmental Affairs Committee, Subcommittee on Disaster Recovery, United States Senate,
Washington, D.C., July 10, 2007.

             Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                               Page 14
           Recommendation #9: Develop a recruitment plan to target local
           candidates when long-term disaster recovery efforts will be
           needed.

           Recommendation #10: Require that project officers, consistent
           with their overall responsibilities as outlined in federal regulations
           and FEMA PA guidance: (a) document all project activity;
           (b) convey all relevant documentation and information from
           predecessor to successor; and (c) review all appropriate
           documentation prior to visiting the subgrantee.

           Recommendation #11: Expedite the development and
           implementation of a standardized credentialing system to include
           employee qualifications, training, mentoring, and other applicable
           information.

           Recommendation #12: Expedite the completion and
           dissemination of the FEMA Public Assistance Operations Manual
           to all disaster personnel.

   Management Comments and OIG Analysis
           Appendix B provides the complete text of FEMA’s responses to
           these five recommendations. FEMA concurred with
           Recommendations 8 through 12. Thus, we consider these
           Recommendations resolved but open, pending review of corrective
           actions taken.

   Congressional Considerations

           The following proposed actions are presented for congressional
           consideration:

           Congressional Consideration #2: Provide authority for an
           extension or waiver of annuitant and residency stipulations as they
           affect FEMA disaster personnel assisting in the response and
           recovery efforts for large-scale disasters.

           Congressional Consideration #3: Provide funding for FEMA to
           establish a permanent, full-time cadre of professional trainers, and
           direct FEMA to comprehensively educate all FEMA disaster
           personnel—prior to, and independent of, a disaster—on FEMA
           statutes, regulations, policies, and procedures.



Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 15
Performance Measurement
             FEMA could better identify needs for improving the timeliness of
             PA program funding and closeouts, and the level of customer
             satisfaction with the PA program, through improved assessments
             of the PA program’s performance. Program performance
             assessments are required by the Government Performance and
             Results Act of 1993 (GPRA), and FEMA has established some
             appropriate performance objectives to use in judging the PA
             program’s performance. However, the performance objectives in
             the current assessment methodology need to be clarified and
             improved to produce more meaningful and useful results of the PA
             program’s timeliness and customer satisfaction.

             The GPRA requires federal agencies to evaluate the efficiency and
             effectiveness of programs and ensure continuous improvement. In
             furtherance of GPRA, FEMA established the following objectives
             for measuring PA program performance: (1) obligate 50% of
             funding within 90 days of declaration; (2) Obligate 80% of funding
             within 180 days of declaration; (3) close 90% of disasters within
             2 years of declaration date; and (4) achieve at least a 90% customer
             satisfaction rating.

             FEMA’s current performance measurement methodology does not
             assure meaningful results for the first two objectives because it
             gives equal weight to all disasters, regardless of magnitude. Thus,
             an inability to fund larger, more complex disasters in a timely
             manner could be obscured by timely performance in funding the
             far more numerous, but less complex, small disasters. For
             example, if FEMA were to obligate funding in a timely manner for
             nine small disasters but not provide timely funding for a single
             large-scale disaster, FEMA’s current performance assessment
             methodology would show it to be 90% successful. However, were
             the measurement system to account for the size of each disaster
             effort by categorizing disasters by magnitude (e.g. small, large and
             catastrophic), it would assure more meaningful results.

             FEMA officials have not measured performance in meeting the
             third objective because a reporting function does not exist in the
             National Emergency Management Information System (NEMIS).
             FEMA officials said the Emergency Management Mission
             Integrated Environment (EMMIE) system, which will replace
             NEMIS for PA projects, will provide closeout information and
             allow evaluation of this performance objective. However a
             timeline for when this transition will occur is not available.
             Furthermore, as currently configured, the assessment of this

  Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                 Page 16
           objective assigns equal weight to the closeout of a small disaster as
           to that of a large-scale disaster. Thus, the timely closeout of small
           disasters could obscure the untimely closeout of large-scale
           disasters.

           FEMA had not measured performance in meeting the fourth
           objective due to the suspension of data collection pending the
           request for, and the Office of Management and Budget (OMB)
           approval of, the FEMA Public Assistance Program Customer
           Satisfaction Survey. As of March 2009, FEMA had not resumed
           data collection, yet did receive OMB approval for the survey.
           Furthermore, as currently planned, the measurement of this
           objective will make no distinction in the weight given to the views
           of subgrantees with many PWs as opposed to those having few
           PWs. Thus, higher satisfaction levels among the many smaller
           disasters could obscure customer dissatisfaction regarding
           large-scale disasters.

           Conclusion

           FEMA’s performance measurement efforts need to be improved in
           order to provide the accurate and balanced information that is
           needed to assess, and improve as appropriate, the timeliness and
           performance of the PA program. FEMA’s current system for
           evaluating timeliness of funding improperly assigns equal weight
           to all disasters, despite the differences in funding or work load.
           Performance measurement methodology for the other two
           objectives has not yet been implemented, but would also not assure
           meaningful results by not differentiating between disasters of
           varying magnitudes or the extent of subgrantee funding. FEMA
           officials need to take appropriate corrective action to improve the
           PA performance measurement system if it is to fulfill its potential
           to identify the need for improvement in PA program management
           and timeliness of efforts.

   Recommendations

           We recommend that the FEMA Administrator:

           Recommendation #13: Use a weighted methodology to assess the
           timeliness of PA funding obligations that will not statistically
           conceal major shortfalls on larger disasters.

           Recommendation #14: Devise and implement a mechanism to
           measure timeliness of PA project closeouts for those disasters not

Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 17
                  included in EMMIE and revise PA performance objective “close
                  90% of disasters within 2 years of the declaration date” to
                  differentiate according to disaster magnitude.

                  Recommendation #15: Conduct PA program customer
                  satisfaction surveys, and revise PA performance objective “achieve
                  at least a 90% customer satisfaction rating” to differentiate
                  between subgrantee funding amounts.

          Management Comments and OIG Analysis
                  Appendix B provides the complete text of FEMA’s responses to
                  these three recommendations. FEMA concurred with
                  Recommendations 13 and 14 but did not concur with
                  Recommendation 15. We consider the first two recommendations
                  resolved but open pending review of corrective actions taken. We
                  consider Recommendation 15 unresolved. Appendix C provides
                  the OIG's analysis of FEMA’s comments and additional details
                  concerning the finding and recommendations.

          Congressional Consideration

                  The following proposed action is presented for congressional
                  consideration:

                  Congressional Consideration #4: Provide FEMA the criteria that
                  should be used to categorize disasters by magnitude (e.g., small,
                  large, and catastrophic).


Alternatives to Streamline the PA Process

          Congress asked that we identify alternatives to streamline the PA process.
          We identified seven alternatives and considered the potential pros and
          cons for each. These alternatives include: (1) negotiate settlements for all
          projects; (2) negotiate settlements for permanent categories of work;
          (3) negotiate settlements for small projects; (4) increase the large project
          threshold; (5) replace grants with pre-scripted mission assignments;
          (6) transfer other federal disaster programs to FEMA; and (7) provide
          interval payments.

          The current PW process provides for final grant settlements on a
          project-by-project basis after the work is completed. PWs can be changed
          after the initial write up for a variety of reasons, including inaccurate cost
          estimates, cost overruns or underruns, or the discovery of hidden damages

       Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                      Page 18
                 or other eligible work. This process allows subgrantees to request
                 reimbursements, through the grantee, on a project-by-project basis, as
                 costs are incurred. Some of the alternatives presented in this section
                 would streamline the PW process through final settlements during the
                 early stages of recovery instead of settlements after the work is completed.
                 Other alternatives would improve the cash flow of subgrantees but would
                 retain other aspects of the current PW process. 3

                          (1) Negotiate Settlements for All Projects. This alternative would
                          change the present PW system for all projects to fixed, lump-sum
                          negotiated settlements between FEMA and the grantee and
                          subgrantee, based on FEMA’s final estimates and any pertinent
                          information provided by the subgrantee. Final estimates will be
                          binding and not subject to change for any reason. This process will
                          be completed no later than 6 months after the disaster declaration.

                              Pros (a) The subgrantee’s cash flow would significantly
                              improve early in the recovery process, resulting in reduced
                              project delays; (b) administrative effort at all government
                              levels would greatly decrease, resulting in significant time and
                              money savings for all; and (c) reduction in state and local
                              administrative requirements would be a basis for FEMA to
                              decrease administrative or management fees paid to the grantee
                              and subgrantee.

                              Cons: (a) FEMA’s estimates for the negotiated settlements will
                              likely differ from actual costs, resulting in possible shortfalls or
                              windfalls to the subgrantee with no recourse for either party;
                              and (b) subgrantees may not complete some of the disaster
                              projects and would use that funding for other purposes.

                          (2) Negotiate Settlements for Permanent Categories of Work.
                          This alternative would provide fixed, lump-sum negotiated
                          settlements, for permanent work categories, between FEMA and
                          the grantee and subgrantee, based on FEMA’s final estimates and
                          any pertinent information provided by the subgrantee. Final
                          estimates will be binding and not subject to change for any reason.
                          This process will be completed no later than 6 months after the
                          disaster declaration.

                          FEMA divides disaster-related work into seven categories:
                          Categories A and B are classified as emergency work, whereas

3
 Through the implementation of one or more of these alternatives, the current designation of “subgrantee”
and “grantee” may change. We have, however, retained this designation throughout this section to prevent
confusion.

             Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                                Page 19

           Categories C through G are classified as permanent work. The
           cost for permanent work is generally more feasible to estimate than
           emergency work because the quantity of work is more definable.

               Pros: (a) The subgrantee’s cash flow would significantly
               improve early in the recovery process, resulting in reduced
               project delays; (b) administrative effort at all government
               levels would greatly decrease, resulting in significant time and
               money savings for all; and (c) reduction in state and local
               administrative requirements would be a basis for FEMA to
               decrease administrative or management fees paid to the grantee
               and subgrantee.

               Cons: (a) FEMA’s estimates for the negotiated settlements will
               likely differ from actual costs, resulting in possible shortfalls or
               windfalls to the subgrantee with no recourse to either party;
               and (b) subgrantees may not complete some of the disaster
               projects and would use that funding for other purposes.

           (3) Negotiate Settlements for Small Projects. This alternative
           would provide fixed, lump-sum negotiated settlements between
           FEMA and the grantee and subgrantee for small projects, based on
           FEMA’s final estimates and any pertinent information provided by
           the subgrantee. Final estimates will be binding and not subject to
           change for any reason. This process will be completed no later
           than 6 months after the disaster declaration. The existing PW
           system provides expedited payments for projects designated as
           small when the cost estimate is below a certain threshold ($64,200
           for fiscal year 2009), yet such projects are still subject to final
           audit and inspection at closeout. With negotiated settlements,
           original damage estimates would be binding and could not be
           changed for any reason.

               Pros: (a) Administrative effort at all government levels would
               decrease, saving time and money; and (b) reduction in state and
               local administrative requirements may be a basis for FEMA to
               decrease administrative or management fees based on PW
               estimates.

               Cons: (a) FEMA’s estimates for the negotiated settlements may
               differ from eligible costs under the small project system,
               resulting in possible shortfalls to the subgrantee with no
               recourse; and (b) subgrantees may not complete some of the
               disaster projects and would use that funding for other purposes.



Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                               Page 20

           (4) Increase the Large Project Threshold. This alternative would
           keep the current PW process intact but would increase the large
           project threshold, resulting in a significant increase in the number
           of PWs classified as small projects, as well as in the funding
           amount for small projects. The PA program differentiates between
           small and large projects based on project costs. For FY 2009, the
           large project threshold is $64,200, regardless of the scale of the
           disaster; it is increased annually based on the Consumer Price
           Index. Funding for projects classified as small is generally final,
           and full payment is available upon approval of the original
           estimate although projects are subject to final audit and inspection.
           Funding for projects classified as large is regularly adjusted
           throughout the PW reimbursement process.

               Pros: (a) Administrative efforts and costs for all parties would
               be reduced based on the streamlined process for small projects;
               and (b) subgrantees’ cash flow would improve because they
               would not need to incur costs prior to receiving payment,
               unlike for projects classified as large.

               Con: Under the small project criteria, subgrantees retain the
               total amount of excess funding for all combined small projects,
               whereas excess large project funding must be returned to the
               federal government.

           (5) Replace Some Grants with Mission Assignments. This
           alternative would change the PW system for designated categories
           of work, such as debris removal, to a pre-scripted system of
           tasking other federal agencies to perform such work (i.e., mission
           assignments). Through this alternative, FEMA would assign work
           and provide funding to another federal agency (e.g., the U.S. Army
           Corps of Engineers) rather than issuing PWs to grantees and
           subgrantees.

               Pros: (a) Grantees and subgrantees would avoid the
               documentation, reimbursement, and closeout requirements of
               the current PW system; (b) experienced federal agencies would
               be responsible for work, thus increasing the likelihood of
               improved efficiency and quality control; (c) contracting
               resources may be greater, resulting in faster completion of
               projects; and (d) administrative costs paid by FEMA to
               grantees and subgrantees would be decreased as a result of
               fewer projects funded by PWs.

               Con: Subgrantees may be reluctant to reduce control over work
               performed within their jurisdictions.

Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 21
           (6) Transfer Other Federal Disaster Programs to FEMA. This
           alternative would entail Congress permanently authorizing FEMA
           to assume responsibility for all federal disaster projects that
           involve significant hazards to life and property. Currently, other
           federal agencies—such as the U.S. Department of Agriculture’s
           National Resources Conservation Service and the U.S. Department
           of Transportation’s Federal Highway Administration—perform
           work that, if delayed, could affect public safety and property.
           Subgrantees experience delays and additional costs because of
           insufficient funding by the responsible federal agency and
           difficulty in comprehending the various federal rules of each
           agency.

               Pros: (a) Risks to life and property would be reduced through a
               more immediate response; (b) subgrantees would not have the
               burden of learning and adhering to various rules and
               procedures of other federal agencies immediately after a
               disaster event; and (c) subgrantees could reduce costs through
               economies of scale and increased efficiency by having fewer
               contracts for similar work (e.g., debris removal).

               Con: Potentially less funding for subgrantees because of
               FEMA’s cost-share provisions.

           (7) Provide Interval Payments. This alternative would entail the
           automatic disbursement of funding to subgrantees at specified
           intervals of the recovery period based on PW estimates as opposed
           to the present system of requesting cash reimbursements after costs
           are incurred. At closeout, FEMA would reconcile eligible project
           costs with the amount disbursed and determine a final settlement
           with the subgrantee.

               Pros: (a) Administrative and paperwork requirements for the
               grantee and subgrantee would be reduced as a result of the
               need to process only a few large payments instead of numerous
               payments; (b) grantees’ responsibility for ensuring that
               subgrantees’ reimbursements are accurate would be reduced;
               (c) subgrantees’ cash flow would be improved early in the
               recovery process; and (d) reduction of state and local
               administrative efforts may be a basis for reducing
               administrative or management fees based on PW estimates.

               Con: Automatic payments based on estimates would require a
               subgrantee to repay FEMA at project closeout for the amount
               of interval payments that exceeds actual costs on recovery

Assessment of FEMA’s Public Assistance Program Policies and Procedures

                               Page 22
                 activities. This could place a burden on the subgrantee if it has
                 inappropriately expended payments on non-recovery items.

             Conclusion

             The current PA process is a practical system in theory, yet its
             administrative requirements entail significant time and expense.
             Many of the grantees’, subgrantees’, and other interested parties’
             concerns could be addressed by implementing the recommendations
             and considerations proffered throughout this report. This is
             especially true for those who consider the current program design
             fundamentally sound, yet principally flawed as a result of inexpert
             execution. Moreover, a more proactive approach by grantees in
             assuring the timeliness and accuracy of project worksheets—albeit
             not a focus of this report—would likewise improve the current
             system. Nevertheless, wholesale change may occur only through a
             shift in the current PA paradigm. Although there is no panacea for
             the inherent challenges derived from a multibillion-dollar program
             that provides assistance for communities to quickly respond to and
             recover from major disasters or emergencies, alternatives to the
             current system could improve the efficiency and economy with
             which FEMA delivers this assistance. The implementation of the
             alternatives presented herein—either on their own or in concert—
             could effect these improvements, and thus certainly warrant further
             FEMA and congressional analysis and consideration.

Recommendation
             We recommend that the FEMA Administrator:

             Recommendation #16: Prepare a detailed report that analyzes the
             costs and benefits of various alternatives to the current PA
             program, including those identified in this report, and provide an
             action plan for each of these alternatives or provide justification for
             why the alternatives are not viable.

Management Comments and OIG Analysis
             FEMA generally concurred with Recommendations 16. Thus, we
             consider this recommendation resolved but open, pending review
             of corrective actions taken. Appendices B and C, respectively,
             contain the entirety of FEMA’s management comments and the
             OIG's analysis of FEMA's comments to the draft report.




  Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                 Page 23
Appendix A
Purpose, Scope, and Methodology

                     We audited FEMA’s PA program policies and procedures pursuant
                     to a request from the U.S. House of Representatives Committee on
                     Transportation and Infrastructure. The Committee noted that
                     Members have raised concerns over FEMA’s implementation of
                     the PA program, particularly regarding delays in project approval
                     and reimbursement to state and local governments.

                     The objectives of our audit were to determine the efficacy of
                     processes and procedures used to generate PWs—including the
                     completeness, accuracy, and timeliness of the PWs—and identify
                     alternatives to streamline the current PW process.

                     We interviewed more than 200 officials from: FEMA
                     headquarters, two FEMA regional offices, two FEMA transitional
                     recovery offices, one FEMA recovery office, and five state
                     government offices responsible for developing and administering
                     the PA program, as well as 14 local government entities that are
                     PA program grant recipients. Our fieldwork was conducted in the
                     District of Columbia and in California, Washington, Louisiana,
                     Mississippi, and Florida. The fieldwork sites were judgmentally
                     selected to include a broad, national selection of subgrantees with
                     varying degrees of experience with FEMA’s PA program. Those
                     states most affected by hurricanes Katrina and Rita—where FEMA
                     obligated more than $11 billion in PA grants—were included to
                     assess the PA program for catastrophic events.

                     We researched federal laws, regulations, executive guidance,
                     testimony, published reports, and other information related to
                     FEMA’s PA program to establish criteria and obtain background
                     information. We examined selected data from NEMIS, such as
                     copies of PWs and related information, to observe matters such as
                     clarity of scopes of work, as well as the timeliness of PW
                     approvals.

                     We analyzed FEMA’s PA program data to determine: (1) the
                     timeliness and management of data for appeals; (2) the timeliness
                     and accuracy of PW determinations; (3) the effect that increasing
                     the large project threshold would have on the classification of
                     projects; and (4) the achievement of FEMA’s PA performance
                     objectives regarding customer satisfaction, as well as timeliness of
                     obligations and closeouts. We obtained data from the PA Appeals
                     Database, NEMIS, Regional FEMA offices, and FEMA’s Disaster
                     Assistance Directorate. Various data were unavailable or
                     incomplete.


          Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                         Page 24
Appendix A
Purpose, Scope, and Methodology

                     We conducted this performance audit under the authority of the
                     Inspector General Act of 1978, as amended, and according to
                     generally accepted government auditing standards except as
                     regards the Alternatives to Streamline the PA Process section,
                     which is conceptual in nature. These standards require that we
                     plan and perform the audit to obtain sufficient, appropriate
                     evidence to provide a reasonable basis for our findings and
                     conclusions. We believe that the evidence obtained and used to
                     develop the Results of Audit section provides a reasonable basis for
                     our findings and conclusions based on our audit objectives.




          Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                         Page 25
Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 26

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 27

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 28

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 29

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 30

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 31

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 32

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 33

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 34

Appendix B
FEMA Management Comments to the Draft Report




         Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                        Page 35

Appendix C
OIG Analysis of Management Comments to the Draft Report

             The Federal Emergency Management Agency (FEMA) generally
             concurred with the majority of the recommendations presented in this
             report. Our analysis of FEMA's comments to the draft report and our
             position on the six recommendations which we consider unresolved are
             provided below.

             The fundamental purpose of our assessment was to determine the efficacy
             of FEMA’s Public Assistance program and to identify alternatives to
             streamline the process. We accomplished this task, in part, through
             identifying and exploring challenges within the program as described by
             grantee and subgrantee officials whom we interviewed. This assessment,
             however, was not—nor ever was purported to be—a scientific, statistical
             analysis of every facet of the PA program. The breadth of our objectives
             precluded such an undertaking. FEMA, nevertheless, has expressed
             concern that we generalized findings based on interviews with a limited
             number of subgrantees in relation to the multiplicity of subgrantees with
             whom we did not interview. Although we never made generalizations on
             the ubiquity of any particular issue, our audit disclosed recurrent issues
             among the subgrantees that we interviewed, suggesting that the
             occurrences were not uncommon and not simply anecdotal. Therefore, we
             maintain that FEMA should determine the frequency of program
             shortfalls—particularly those recurrent issues raised by the subgrantees
             that we interviewed, and take appropriate corrective action as
             recommended. The expediting of customer satisfaction surveys by
             FEMA, previously restricted by Office of Management and Budget
             requirements, should be useful in this process.

             Below, we provide specific comments on the three recommendations that
             FEMA believes should be closed (Recommendations 1, 4, and 6) as well
             as the three recommendations with which FEMA did not concur
             (Recommendations 3, 5, and 15). We disagree with FEMA’s position in
             all such instances and have clarified the recommendations and/or the
             related findings with additional detail. We consider the remainder of the
             recommendations in this report resolved but open pending evaluation of
             corrective actions taken by FEMA.

                     Recommendation #1: We recommended that FEMA establish a
                     complete set of standards for achieving timeliness in the appeals
                     process. FEMA considered this recommendation closed, stating
                     that timelines for responding to appeals already exist in
                     regulations. Although timelines are established for various phases
                     of the appeal process, we do not concur that timelines are specified
                     for all aspects of the process. For example, FEMA’s regulations
                     do not specify timeline requirements on appeals while waiting to
                     receive additional information from an independent technical

          Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                         Page 36
Appendix C
OIG Analysis of Management Comments to the Draft Report

                     expert whom FEMA has requested to analyze the subject matter, or
                     from the subgrantee. The absence of timelines for any phase of the
                     process may result in a protracted period of time before a final
                     determination is reached. Thus, timeliness is not ensured. Our
                     recommendation seeks to ensure efficiency within the appeals
                     process—a critical quality that the majority of the subgrantees with
                     whom we interviewed did not believe to be present.

                     Recommendation #3: We recommended that FEMA establish an
                     Agency-wide mediation or arbitration process for appeals that have
                     reached an impasse. FEMA did not concur with this
                     recommendation, stating that the appeals process does not present
                     any opportunities for an impasse to occur. We used impasse to
                     denote a significant delay in the appeals process, and our data
                     showed that there were indeed significant delays—sometimes
                     several years.

                     We agree with FEMA's comments that once filed, an appeal
                     decision will ultimately be rendered. Our recommendation was
                     intended to ensure that appeals with significant delays be referred
                     to a mediation or arbitration process for prompt resolution. Our
                     finding alludes to FEMA's Appeals Arbitration Panel available to
                     the Gulf Coast states as an example of how to move projects
                     forward. We agree that FEMA's arbitration process is being
                     implemented as an alternative to the appeals process. However,
                     independent arbitration only became necessary after FEMA and
                     subgrantees failed to come to agreement -- years after the Gulf
                     Coast hurricanes -- on work eligibility. Since project worksheets
                     had not been finalized and funding obligated, there was no
                     opportunity for subgrantees to file an appeal since no appealable
                     administrative action had been taken by FEMA.

                     Subgrantee officials whom we interviewed suggested an arbitration
                     or mediation option due to extended delays in obtaining appeal
                     determinations from FEMA. If timeframes were established for
                     grantees and subgrantees to submit additional information when
                     requested by FEMA, and appeal determinations were made within
                     a complete set of timeframe standards (as we suggested in
                     Recommendation #1), arbitration may not be required. However,
                     when extended delays occur, an independent arbitration panel
                     would put scope of work and funding issues to rest and recovery
                     work could then proceed.

                     In response to this recommendation, FEMA said it intends to
                     evaluate the arbitration process in the fourth quarter of FY 2010 to

          Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                         Page 37
Appendix C
OIG Analysis of Management Comments to the Draft Report

                     determine if it accelerates applicants' recovery and is appropriate to
                     implement in other disasters. As it evaluates the arbitration
                     process and reassesses its position on Recommendation #1, FEMA
                     should consider whether arbitration is appropriate when appeal
                     determinations are not made in a timely manner.

                     Recommendation #4: We recommended that FEMA initiate and
                     triage Environmental and Historic Preservation (EHP) workload,
                     based on importance and not necessarily sequence, immediately
                     following a disaster. FEMA considered this recommendation
                     closed, stating that this practice has been in place as part of EHP’s
                     Standard Operating Procedures (SOP) since the 1990s. FEMA
                     commented that based on its review of PA projects for disasters in
                     all 10 Regions, EHP reviews were completed in less than 30 days
                     for 91% of the projects. While this statistic is noteworthy, it
                     includes those projects that are subject to the statutory or
                     categorical exclusions authorized by 44 CFR, Part 10 –
                     Environmental Considerations. Our assessment of PA–related
                     activities was not a scientific, statistical analysis and was based on
                     those projects requiring extensive EHP reviews or assessments
                     which are most likely part of the 9% that required in excess of
                     30 days to complete.

                     Our recommendation was based, in part, on the narrow window for
                     performing work near the habitat of certain species for which only
                     a few months of each year would not be endangering to them, and
                     various construction windows. Thus, it is critical that these
                     projects are identified quickly, and prioritized, to take advantage of
                     the limited timeframe. From the responses received from the
                     subgrantees, we are not confident that the SOP addresses all of
                     these issues, or that FEMA employees are familiar with the SOP to
                     properly implement it. It is important to note that we specifically
                     recommended that FEMA initiate and triage the EHP process, and
                     did not make any recommendations regarding FEMA’s SOP. As
                     such, in addition to our initial—action-oriented, not policy-
                     oriented, recommendation—we suggest that FEMA consider
                     clarifying the SOP, as well as providing increased training to its
                     EHP employees to ensure compliance.

                     Recommendation #5: We recommended that FEMA establish and
                     enforce formal time limits for the EHP process. FEMA did not
                     concur with this recommendation, stating that although it is the
                     goal of FEMA to accelerate EHP timeframes, the process is
                     influenced by too many factors to prescribe additional deadlines.
                     Although a variety of factors could reasonably create delays to the

          Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                         Page 38
Appendix C
OIG Analysis of Management Comments to the Draft Report

                     EHP process, we believe that procedures must be implemented to
                     prevent excessive delays, such as those that subgrantees have
                     experienced. Presently, there is nothing to prevent the EHP
                     process from spanning years, and it is not uncommon for that to
                     occur. While FEMA did not concur with the recommendation,
                     officials commented that in FY 2011, priority will be given to
                     developing and maintaining national, regional, and state
                     streamlining initiatives which will further streamline EHP
                     timeframes. Additionally, FEMA intends to add deputy regional
                     environmental positions within each of its regions to provide
                     another resource to execute the pre-disaster agreements we
                     discussed in Recommendation #6. FEMA should continue to be
                     proactive in this area by streamlining the EHP process as early as
                     possible, including establishing and enforcing formal time limits to
                     ensure subgrantee response and recovery efforts are not
                     significantly delayed due to EHP shortfalls.

                     Recommendation #6: We recommended that FEMA coordinate
                     the EHP process through programmatic or similar pre-disaster
                     agreements with other federal agencies and state entities involved
                     in the process. FEMA considered this recommendation closed,
                     stating that this course of action has been employed since the
                     1990s. We find it disconcerting that FEMA has had this option
                     available to them for many years, and supported its use, yet
                     subgrantees commented on the lack of, and need for, these very
                     arrangements. For example, subgrantee officials said that FEMA
                     will not accept state reviews, and that improved cooperation and
                     communication among the different agencies is needed. Thus, in
                     addition to our initial recommendation, we also suggest increased
                     training for FEMA employees in establishing and implementing
                     such agreements, as well as increased dissemination of
                     programmatic agreement concepts to all relevant parties.

                     Recommendation #15: We recommended that FEMA conduct PA
                     program customer satisfaction surveys and revise the PA
                     performance objective “achieve at least 90% customer satisfaction
                     rating,” to differentiate between subgrantee funding amounts.
                     FEMA did not concur with this recommendation, stating that
                     customer satisfaction standards should be the same for all disasters.
                     We believe that FEMA did not understand this recommendation,
                     particularly because FEMA concurred with our preceding and
                     intrinsically similar recommendations regarding performance
                     measurement. Therefore, to clarify, we are not recommending that
                     FEMA employ different customer satisfaction standards for
                     disasters of greater magnitude but, rather, use a weighted

          Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                         Page 39

Appendix C
OIG Analysis of Management Comments to the Draft Report

                     methodology in determining customer satisfaction across all
                     disasters. We believe, for example, that if FEMA (according to its
                     customers) adequately responds to nine small-scale disasters, but
                     inadequately responds to one catastrophic disaster that requires
                     greater efforts, FEMA’s customer satisfaction ratings should not
                     reflect a 90% overall satisfaction rating. By doing so, ratings
                     would be misleading and would obscure customer dissatisfaction
                     on large-scale disasters. Thus, we reiterate our recommendation
                     that FEMA revise its performance objective so that the customer
                     satisfaction ratings on large-scale disasters will be transparent.




          Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                         Page 40

Appendix D
Major Contributors to This Report

                      Robert Lastrico, Western Regional Office Director
                      Jack Lankford, Audit Manager
                      Devin Polster, Auditor-in-Charge/Team Leader
                      Paulette Solomon, Auditor
                      Venetia Gatus, Auditor
                      Tony Fajardo, Auditor
                      Gloria Conner, Auditor
                      Jeff Flynn, Program Analyst




           Assessment of FEMA’s Public Assistance Program Policies and Procedures

                                          Page 41
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Under Secretary for Management
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Procurement Officer
                      Chief Privacy Officer
                      Director, DHS GAO/OIG Liaison Office
                      FEMA Administrator
                      FEMA Deputy Administrator
                      FEMA Audit Liaison (DP8W09/08-126-EMO-FEMA)
                      FEMA Director of Management and Chief Acquisition Officer
                      FEMA Chief Procurement Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      U.S. House of Representatives Committee on Transportation and
                      Infrastructure
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Assessment of FEMA’s Public Assistance Program Policies and Procedures 


                                          Page 42

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
